NO. 20-639
IN THE

Supreme Court of the United States
CALVARY CHAPEL DAYTON VALLEY,
Petitioner,
v.
STEVE SISOLAK, in his official capacity as Governor of
Nevada; AARON FORD, in his official capacity as
Attorney General of Nevada; FRANK HUNEWILL, in
his official capacity as Sheriff of Lyon County,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
REPLY BRIEF FOR PETITIONER

KRISTEN K. WAGGONER
JOHN J. BURSCH
ALLIANCE DEFENDING
FREEDOM
440 First Street NW
Suite 600
Washington, DC 20001
(202) 393-8690
kwaggoner@ADFlegal.org
jbursch@ADFlegal.org

DAVID A. CORTMAN
Counsel of Record
RORY GRAY
ALLIANCE DEFENDING
FREEDOM
1000 Hurricane Shoals Rd.
NE, Suite D-1100
Lawrenceville, GA 30043
(770) 339-0774
dcortman@ADFlegal.org
rgray@ADFlegal.org

Counsel for Petitioner

RYAN J. TUCKER
JEREMIAH J. GALUS
ALLIANCE DEFENDING
FREEDOM
15100 N. 90th Street
Scottsdale, AZ 85260
(480) 444-0020
rtucker@ADFlegal.org
jgalus@ADFlegal.org

JASON D. GUINASSO
500 Damonte Ranch Pkwy
Suite 980
Reno, NV 89521
(775) 853-8746
jguinasso@hutchlegal.com

Counsel for Petitioner

i
CORPORATE DISCLOSURE STATEMENT
The Corporate Disclosure Statement in the
Petition for Writ of Certiorari remains unchanged.

ii
TABLE OF CONTENTS
CORPORATE DISCLOSURE STATEMENT ............ i
TABLE OF AUTHORITIES ..................................... iii
INTRODUCTION ...................................................... 1
I. The relief the Ninth Circuit granted strays
from the Catholic Diocese principle of equal
treatment of religion. ............................................ 3
II. This Court should make clear what Catholic
Diocese all but states: The Free Exercise
Clause requires that places of worship be
treated no harsher than their best treated
comparators. ......................................................... 6
CONCLUSION ......................................................... 10
APPENDIX TABLE OF CONTENTS
United States Court of Appeals
for the Ninth Circuit
Opinion
Issued December 15, 2020 ....................................... 1b

iii
TABLE OF AUTHORITIES
Cases
Burnside v. Walters,
569 U.S. 971 (2013) ................................................ 1
Calvary Chapel Dayton Valley v. Sisolak,
140 S. Ct. 2603 (2020) ............................................ 9
Roman Catholic Diocese of Brooklyn v. Cuomo,
__ S. Ct. __, 2020 WL 6948354 (Nov. 25,
2020) .............................................................. passim
Statutes
Nevada Admin. Code § 414.XXX(1) ........................... 7
Other Authorities
Nevada Health Response, Gov. Sisolak Guidance:
Directive 003–Essential Businesses,
https://bit.ly/37kagfm............................................. 7
Nevada Health Response, Roadmap to Recovery
for Nevada (Industry Specific Guidance for
Phases 1 & 2) (May 29, 2020),
https://bit.ly/37oprnv ............................................. 8
Nevada Health Response, Statewide Pause (Nov.
24, 2020), https://bit.ly/33C18la ............................ 5

1
INTRODUCTION
Respondent Hunewill agrees that Calvary Chapel
Dayton Valley’s petition raises issues of national
importance and should be granted. Hunewill Resp. 3,
8–11. As for Respondents Sisolak and Ford, they did
not respond at all. They did not even file a waiver
form, as is typical. See S. Ct. R. 15.5. Perhaps this was
done in the hope that the Court would direct a
response within 30 days, deferring a conference date
until this case could not be heard during the 2020
Term. But given the exigent circumstances—and the
many pending lower-court cases that a merits ruling
will impact—it is entirely appropriate for this Court
under Rule 16.1 to grant the petition now. E.g.,
Burnside v. Walters, 569 U.S. 971 (2013) (memorandum order granting petition without having received
a brief in opposition). Alternatively, the Court could
direct a response within a couple of business days so
that the petition can be considered again at one of the
two remaining January conferences. The uncertain
climate for religious rights during COVID-19 warrants immediate intervention and a merits opinion.
As the petition anticipated, Pet.6, the Ninth
Circuit issued its opinion on December 15, 2020.
App.1b–11b. And though the court of appeals did a
commendable job applying Roman Catholic Diocese of
Brooklyn v. Cuomo, __ S. Ct. __, 2020 WL 6948354
(Nov. 25, 2020), this Court’s review is still needed.
After concluding that the Nevada Governor treats
places of worship less favorably than many secular
entities, the court of appeals granted a preliminary
injunction allowing Calvary Chapel to meet at a 25%
capacity limit, the same as casinos, museums, and
some others in the Governor’s most recent order.
App.11b. That was error.

2
The panel should have instead followed Catholic
Diocese and entered a preliminary injunction that
treats Calvary Chapel no less well than businesses
Nevada considers “essential,” such as manufacturing
facilities and professional offices, which have no
capacity limit other than the effective limit caused by
adhering to social distancing guidelines. Catholic
Diocese, 2020 WL 6948354, at *2 (comparing 10person limit for synagogues and churches with
“essential” businesses in the red zone that could
admit “as many people as they wish,” including
certain manufacturing plants and transportation
facilities, and further comparing 25-person limits for
places of worship with non-essential businesses in the
orange zone, all of which could “decide for themselves
how many persons to admit”). With no record
evidence that places of worship are greater sources of
COVID-19 spread than are manufacturing facilities
and professional offices, the Governor treated places
of worship less favorably and without trying less
restrictive rules. That violates the Constitution.
The opinion also erred in establishing a 25%
capacity cap. If the opinion was referring to the
challenged Directive 021, the capacity limit should
have been 50%, as for casinos, museums, restaurants,
retail establishments, and other secular venues.
App.10b. If it was the executive order currently in
effect, Directive 035, the capacity limit still should
have been 50%, since retail establishments have a
50% capacity limit under that directive. CA9 ECF 59
at 6 n.4. Either way, the preliminary injunction treats
Calvary Chapel less well than even those businesses
Nevada does not consider “essential.”
Certiorari is warranted.

3
I.

The relief the Ninth Circuit granted strays
from the Catholic Diocese principle of
equal treatment of religion.

Start with the narrower of the Ninth Circuit’s
mistakes. The panel rightly concluded that Directive
021 favors secular businesses and activities over
places of worship. The court also correctly determined
that this treatment warrants strict scrutiny, and that
the directive collapses under that standard. But the
relief that the Ninth Circuit ordered—allowing
Calvary Chapel to meet at 25% fire-code capacity—
cannot be squared with the Catholic Diocese principle
that places of worship must, at a bare minimum, be
treated no less favorably than their secular
comparators. At bottom, whether under the
challenged Directive 021, or the emergency directive
currently in effect, Directive 035, Calvary Chapel’s
gathering limit should be at least 50% capacity.
The Ninth Circuit recognized that Catholic Diocese compelled reversal of the district court’s denial of
Calvary Chapel’s motion for preliminary injunction.
App.9b. “Just like the New York restrictions,” the
lower court recognized, “[Directive 021] treats
numerous secular activities and entities significantly
better than religious worship services” by allowing
them to operate at 50% capacity while imposing a 50person cap on places of worship. Ibid. That “disparate
treatment” is “not neutral or generally applicable”
and thus triggers strict scrutiny. Id. at 8b.
The Ninth Circuit also concluded correctly that,
like the New York order in Catholic Diocese, Directive
021 is not narrowly tailored to serve a compelling
state interest. App.10b. “[I]nstead of a fifty-person
cap,” the court of appeals observed, “the Directive

4
could have . . . imposed a limitation of 50% of fire-code
capacity on houses of worship, like the limitation it
imposed on retail stores and restaurants, and like the
limitation the Nevada Gaming Control Board
imposed on casinos.” Ibid.
But in reversing and remanding the case to the
district court, the court of appeals directed the lower
court to “preliminarily enjoin the State from imposing
attendance limitations on in-person services in
houses of worship that are less favorable than 25% of
the fire-code capacity,” App.11b (emphasis added),
instead of the 50% limit that so many secular venues
enjoy under Directive 021, and that retail stores
continue to enjoy under Nevada’s most recent edict,
Directive 035. App.2b n.1. So while the Ninth Circuit
correctly held that Directive 021 fails the minimum
requirement of neutrality to religion and wilts under
strict scrutiny, the court’s allowing places of worship
to meet at only 25% capacity continues Nevada’s
disparate treatment of places of worship.
In the court of appeals’ defense, the Governor’s
directives and guidance have been ever-changing. By
the time the Ninth Circuit heard oral argument on
December 8, 2020, regarding Directive 021, the
Governor had issued 14 more directives, and Directive 035 was in effect. App.2b n.1; see Directive 035,
CA9 ECF 59 at 13–20. Under that directive, churches
are limited to the lesser of 25% capacity or 50 persons,
while “commercial entities such as casinos; bowling
alleys, arcades, miniature golf facilities, amusement
parks, and theme parks; restaurants, food establishments, breweries, distilleries, and wineries; museums, art galleries, zoos, and aquariums; and gyms,
fitness facilities, and fitness studios” are limited to

5
25% capacity with no hard cap. App.2b n.1. It thus
appears the court of appeals tailored the injunctive
relief to the present order, Directive 035, instead of
the challenged Directive 021.
Tailoring the relief to Directive 035, by itself, is
not a problem since Nevada’s disparate treatment of
religion “persist[s] in Directive 035.” App.2b n.1. In
short, Nevada’s disparate treatment of religion
permeates many of its emergency orders, including
Directives 021 and 035. The problem with the ordered
relief is that it does not adhere to the principle of
equal treatment that the Free Exercise Clause and
Catholic Diocese demand. Under both Directives 021
and 035, retail establishments—venues that Catholic
Diocese recognizes cannot be treated better than
places of worship without triggering strict scrutiny—
operate at 50% fire-code capacity with no hard cap.
See Catholic Diocese, 2020 WL 6948354, at *2; see
also CA9 ECF 59 at 6 n.4 (letter brief addressing 50%treatment of retail businesses under Directive 035);
Nev. Health Response, Statewide Pause (Nov. 24,
2020), https://bit.ly/33C18la (last viewed Dec. 17,
2020) (specifying retail businesses may operate at
50% fire-code capacity under Directive 035).
Thus, if Calvary Chapel’s comparators were
limited only to “[c]asinos, bowling alleys, retail
businesses, restaurants, arcades, and other similar
secular entities,” App.9b (emphasis added), the Free
Exercise Clause still requires that Calvary Chapel’s
gathering limit be at least 50% capacity under
Directive 021 and Directive 035. But, as Calvary
Chapel explains in Section II, the comparators are not
so limited. Neither is the relief that Catholic Diocese
and the Free Exercise Clause require.

6
II.

This

Court

should make clear what
Catholic Diocese all but states: The Free
Exercise Clause requires that places of
worship be treated no harsher than their
best treated comparators.

Even an order allowing Calvary Chapel to meet at
50% capacity would not have gone far enough. The
Free Exercise Clause and Catholic Diocese demand
more: Places of worship must be treated no worse
than their best treated comparators. And here,
Calvary Chapel’s best treated comparators—e.g.,
professional offices and manufacturers—have no
capacity limit beyond the limit that naturally results
from the neutral requirement of social distancing.
In concluding that the challenged New York order
violated the minimum requirement of neutrality to
religion, Catholic Diocese observed that the order
imposed no capacity restrictions on many so-called
“essential” businesses in a “red zone,” but restricted
places of worship to 10 persons. 2020 WL 6948354, at
*2. The “disparate treatment” was “even more
striking in an orange zone,” where “non-essential
businesses” could “decide for themselves how many
persons to admit,” while churches, synagogues, and
mosques were restricted to 25 persons. Ibid. The
order’s failure to meet the minimum and most basic
requirement of neutrality to religion, along with the
order’s failure to meet the strict scrutiny that such
disparate treatment demands, led this Court to enjoin
those restrictions on religious services.
Like New York, Nevada has placed the favored
“essential” label on a host of venues and activities,
and has done so since March 2020. See Directive 003
(ER 702–07), §§ 4, 6, 7 (declaring which businesses

7
are essential); Nev. Admin. Code § 414.XXX(1)
(emergency regulation) (same); Nev. Health
Response, Gov. Sisolak Guidance: Directive 003–
Essential Businesses, https://bit.ly/37kagfm (last
viewed Dec. 17, 2020) (same). Nevada’s list of favored
“[e]ssential businesses” includes, for instance,
“essential infrastructure,” such as manufacturers;
shipping and delivery businesses; financial
institutions; auto supply and repair shops;
laundromats; warehouses; transportation services;
mail and shipping services; and professional and
technical services. Ibid. Compare to Catholic Diocese,
2020 WL 2020 WL 6948354, at *2 (“the list of
‘essential’ businesses includes things such as
acupuncture facilities, camp grounds, garages, as well
as many whose services are not limited to those that
can be regarded as essential, such as all plants
manufacturing chemicals and microelectronics and
all transportation facilities”); id. at *4 (Gorsuch, J.,
concurring) (“And it turns out the businesses the
Governor considers essential include hardware
stores, acupuncturists, and liquor stores. Bicycle
repair shops, certain signage companies, accountants,
lawyers, and insurance agents are all essential too.”).
And many of these “essential” Nevada businesses
operate with no capacity limitation. Take, for
example, non-retail businesses like legal, accounting,
financial, and real estate firms. The Governor has at
most “encouraged” those businesses to permit
employees to work from home “to the greatest extent
practicable.” Directive 021, § 4. But the Governor has
not imposed a capacity limit on those businesses,
other
than
social
distancing
requirements.
Professional and financial entities get to decide for
themselves at what capacity they operate. Nev.

8
Health Response, Roadmap to Recovery for Nevada
(Industry Specific Guidance for Phases 1 & 2) 4, 9, 15–
16 (May 29, 2020), https://bit.ly/37oprnv (last viewed
Dec. 17, 2020). As for manufacturers, financial
institutions, auto supply and repair shops,
warehouses, transportation services, and mail and
shipping services, Calvary Chapel has yet to discover
any order or official state guidance limiting those
facilities’ capacities, beyond requiring that they meet
certain safety and health protocols like social
distancing.
That professional offices, financial institutions,
manufacturers, warehouses, transportation services,
and so on are limited only by the neutral and
generally applicable requirement of social distancing
invites the question why places of worship do not
receive the same treatment. Catholic Diocese seemed
to have answered that question—there is no good
reason—but apparently not clearly enough given that
Calvary Chapel is still treated more harshly than
their best treated comparators under the Ninth
Circuit’s order. That is why Calvary Chapel, in a
letter brief regarding Catholic Diocese submitted six
days before oral argument, said that a 50% fire-code
capacity limit was the “bare minimum” relief
required, and that the Constitution and Catholic
Diocese required a preliminary injunction that
treated Calvary Chapel comparably to manufacturers
and professional offices. CA9 ECF 59 at 10.
That does not mean Calvary Chapel would have
no capacity limits. After all, social distancing alone
results in an effective 50% capacity limit. It means
that Nevada cannot impose a 25% capacity cap on a
church while placing no cap at all on other entities.

9
***
State and county executives continue to issue
edicts drawing lines between essential and nonessential businesses, crafting zone-by-zone or countyby-county restrictions and grouping religious
assemblies—protected by our nation’s first right—
with venues and activities that have no constitutional
protection whatsoever. It is apparent that those
officials—and the courts that are called to uphold the
Constitution—need a clarion standard by which to
operate: “[O]nce a State creates a favored class of
businesses, . . . the State must justify why houses of
worship are excluded from that favored class.”
Catholic Diocese, 2020 WL 6948354, at *8
(Kavanaugh, J., concurring). This case is an ideal
vehicle for this Court to so hold in a full merits
opinion, clarifying that the Free Exercise Clause
demands nothing less in times of public tumult than
in times of tranquility.
Time is still of the essence. If the Court does not
grant the petition by its last January conference,
federal, state, and local officials will not have the
benefit of this Court’s definitive guidance until the
end of 2021 or early 2022 at the earliest. Pet.39. Such
delay “will cause irreparable harm” to Calvary Chapel
and its congregants and to thousands more across the
country. Calvary Chapel Dayton Valley v. Sisolak, 140
S. Ct. 2603, 2609 (2020) (Alito, J., dissenting).
Certiorari is warranted promptly.

10
CONCLUSION
For the foregoing reasons, and those discussed in
the petition for a writ of certiorari, the petition should
be granted.
Respectfully submitted,
KRISTEN K. WAGGONER
JOHN J. BURSCH
ALLIANCE DEFENDING
FREEDOM
440 First Street NW
Suite 600
Washington, DC 20001
(202) 393-8690
kwaggoner@ADFlegal.org
jbursch@ADFlegal.org
RYAN J. TUCKER
JEREMIAH J. GALUS
ALLIANCE DEFENDING
FREEDOM
15100 N. 90th Street
Scottsdale, AZ 85260
(480) 444-0020
rtucker@ADFlegal.org
jgalus@ADFlegal.org

DECEMBER 2020

DAVID A. CORTMAN
Counsel of Record
RORY GRAY
ALLIANCE DEFENDING
FREEDOM
1000 Hurricane Shoals Rd.
NE, Suite D-1100
Lawrenceville, GA 30043
(770) 339-0774
dcortman@ADFlegal.org
rgray@ADFlegal.org
JASON D. GUINASSO
500 Damonte Ranch Pkwy
Suite 980
Reno, NV 89521
(775) 853-8746
jguinasso@hutchlegal.com

APPENDIX

ib
APPENDIX TABLE OF CONTENTS
United States Court of Appeals
for the Ninth Circuit
Opinion
Issued December 15, 2020 ....................................... 1b

1b
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CALVARY CHAPEL DAYTON
VALLEY,
Plaintiff-Appellant,
v.
STEVE SISOLAK, in his
official capacity as Governor of
Nevada; AARON FORD, in his
official capacity as the Nevada
Attorney General; FRANK
HUNEWILL, in his official
capacity as Sheriff of Lyon
County,

No. 20-16169
D.C. No.
3:20-cv-00303RFB-VCF
OPINION

Defendants-Appellees.
Appeal from the United States District Court
for the District of Nevada
Richard F. Boulware II, District Judge, Presiding
Argued and Submitted December 8, 2020
San Francisco, California

2b
Before: DANNY J. BOGGS , MILAN D. SMITH, JR.,
and MARK J. BENNETT, Circuit Judges.
Opinion by Judge Milan D. Smith, Jr.
M. SMITH, Circuit Judge:
Calvary Chapel Dayton Valley (Calvary Chapel)
challenges Nevada Governor Steve Sisolak’s Directive
021 (the Directive) as a violation of the Free Exercise
Clause of the First Amendment to the United States
Constitution. The district court denied the church’s
request for a preliminary injunction barring enforcement of the Directive against houses of worship. We
reverse.
FACTUAL AND PROCEDURAL BACKGROUND
On March 12, 2020, Nevada Governor Steve
Sisolak declared a state of emergency in Nevada
because of the spread of COVID-19, and issued
emergency directives aimed at limiting the spread of
the virus. The specific emergency directive challenged
here is Directive 021, which Governor Sisolak issued
on May 28, 2020.1
The Honorable Danny J. Boggs, United States Circuit Judge
for the U.S. Court of Appeals for the Sixth Circuit, sitting by
designation.
Although the Directive is no longer in effect, we held in an order
denying the State’s motion to dismiss that Calvary Chapel’s case
is not moot. Governor Sisolak could restore the Directive’s
restrictions just as easily as he replaced them, or impose even
more severe restrictions. See Friends of the Earth, Inc. v.
Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 189 (2000); see
also Elim Romanian Pentecostal Church v. Pritzker, 962 F.3d
341, 344–45 (7th Cir. 2020). In fact, Governor Sisolak has issued

1

3b
The Directive “strongly encourage[s]” all
Nevadans to stay at home “to the greatest extent
possible.” In general, it prohibits gatherings of more
than fifty people “in any indoor or outdoor area[.]”
More specifically, the Directive imposes limits of the
lesser of 50% of fire-code capacity or 50 people in
movie theaters (per screen), museums, art galleries,
zoos, aquariums, trade schools, and technical schools.
It prohibits public attendance at musical performances, live entertainment, concerts, competitions,
sporting events, and any events with live performances. Retail businesses, bowling alleys, arcades, nonretail outdoor venues, gyms, fitness facilities,
restaurants, breweries, distilleries, wineries, and
body-art and piercing facilities must cap attendance
at 50% of their fire-code capacities. The Directive
delegates the power to regulate casino occupancy to
the Nevada Gaming Control Board, which ultimately
imposed an occupancy cap of 50% of fire-code capacity,

numerous emergency directives after Directive 021. For
example, Directive 035, which is currently in effect, limits
houses of worship to “the lesser of 25% of the listed fire code
capacity or 50 persons.” In contrast, it imposes only a 25% limit
on commercial entities such as casinos; bowling alleys, arcades,
miniature golf facilities, amusement parks, and theme parks;
restaurants, food establishments, breweries, distilleries, and
wineries; museums, art galleries, zoos, and aquariums; and
gyms, fitness facilities, and fitness studios. Declaration of
Emergency for Directive 035, https://gov.nv.gov/News/
Emergency_Orders/2020/2020-11-24_-_COVID19_Emergency_
Declaration_Directive_035. Although the only directive before us
today is the Directive, we emphasize that all subsequent
directives are subject to the same principles outlined in this
opinion, and that many of the issues we identify in the Directive
persist in Directive 035.

4b
in addition to a wide variety of other restrictions and
requirements.
Calvary Chapel challenges § 11 of the Directive,
which imposes a fifty-person cap on “indoor in-person
services” at “houses of worship.” The church alleges
that gathering its members in one building “is central
to [its] expression of [its] faith in Jesus Christ,” and
the Directive unconstitutionally burdens this
religious expression. Calvary Chapel further argues
that the Directive is not neutral or generally
applicable because it targets, discriminates against,
and shows hostility toward houses of worship.2
The district court denied Calvary Chapel’s motion
for injunctive relief. The court concluded that the
church did not demonstrate a likelihood of success on
its Free Exercise claim, relying heavily on Chief
Justice Roberts’s concurrence in South Bay United
Pentecostal Church v. Newsom, 140 S. Ct. 1613 (2020)
(mem.). Like the Chief Justice in South Bay, the
district court found that the State treated similar
secular activities and entities—including lectures,
museums, movie theaters, trade and technical
schools, nightclubs, and concerts—the same as or
worse than church services. Accordingly, the court
concluded that the Directive was neutral and
generally applicable.
After appealing the district court’s order, Calvary
Chapel filed an emergency motion with our court for
Calvary Chapel included an as-applied challenge to the
Directive in its First Amended Complaint. The district court
found that Calvary Chapel did not provide a sufficient factual
basis for this claim. Calvary Chapel did not appeal this ruling of
the district court.

2

5b
an injunction pending appeal. A two-judge panel of
our court denied the church’s motion. See Calvary
Chapel Dayton Valley v. Sisolak, No. 20-16169, 2020
WL 4274901, at *1 (9th Cir. July 2, 2020). The church
next turned to the Supreme Court, filing an
application seeking injunctive relief pending appeal.
The Supreme Court denied that application. See
Calvary Chapel Dayton Valley v. Sisolak, 140 S. Ct.
2603 (2020) (mem.). Calvary Chapel then filed a
petition for a writ of certiorari before judgment with
the Supreme Court, see Sup. Ct. R. 11, and that
petition remains pending while we consider the
church’s merits appeal to our court.
In this appeal, Calvary Chapel contends that § 11
of the Directive is not neutral and generally
applicable because it expressly treats at least six
categories of secular assemblies better than it treats
religious services. These categories include casinos,
restaurants and bars, amusement and theme parks,
gyms and fitness centers, movie theaters, and mass
protests. Because of these facial defects, Calvary
Chapel seeks to apply strict scrutiny review to the
Directive, and contends that the State has failed to
demonstrate that it has a compelling interest, or that
the Directive is narrowly tailored.
In response, the State argues that Jacobson v.
Massachusetts, 197 U.S. 11 (1905), provides the
proper framework governing a state’s authority
during a public health crisis. The State further argues
that even if Jacobson does not apply, the Directive
does not violate the Free Exercise Clause because it is
a neutral and generally applicable law—it imposes
“[s]imilar or more severe restrictions . . . to compa-

6b
rable secular gatherings.” South Bay, 140 S. Ct. at
1613 (Roberts, C.J., concurring).
We
have
jurisdiction
pursuant
28 U.S.C. § 1292(a)(1), and we reverse.

to

STANDARD OF REVIEW
We review “the district court’s decision to grant or
deny a preliminary injunction for abuse of discretion.”
Sw. Voter Registration Educ. Project v. Shelley, 344
F.3d 914, 918 (9th Cir. 2003) (en banc) (per curiam).
“Within this inquiry, [this court] review[s] the district
court’s legal conclusions de novo and its factual
findings for clear error.” Ramos v. Wolf, 975 F.3d 872,
888 (9th Cir. 2020) (citing Hernandez v. Sessions, 872
F.3d 976, 987 (9th Cir. 2017)).
ANALYSIS
“The Free Exercise Clause of the First Amendment, which has been made applicable to the States
by incorporation into the Fourteenth Amendment . . . provides that ‘Congress shall make no law
respecting an establishment of religion, or prohibiting
the free exercise thereof[.]’” Emp’t Div., Dep’t of
Human Res. v. Smith, 494 U.S. 872, 876–77 (1990)
(internal citations and emphasis omitted). In
determining whether a law prohibits the free exercise
of religion, courts ask whether the law “is neutral and
of general applicability.” Church of the Lukumi
Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 531
(1993) (citing Smith, 494 U.S. at 879). If it is, then the
law need only survive rational basis review—even if
it “has the incidental effect of burdening a particular
religious practice.” Id. If it is not neutral and

7b
generally applicable, the law must survive strict
scrutiny review. Id. at 546.
The Supreme Court’s recent decision in Roman
Catholic Diocese of Brooklyn v. Cuomo, --- S. Ct. ----,
2020 WL 6948354 (2020) (per curiam), arguably
represented a seismic shift in Free Exercise law, and
compels the result in this case.3 In Roman Catholic
Diocese, two houses of worship sought an injunction
pending their appeal in the Second Circuit from the
Supreme Court, seeking relief from an Executive
Order issued by the Governor of New York that
addressed the spread of COVID-19 in the state. That
order imposed “restrictions on attendance at religious
services in areas classified as ‘red’ or ‘orange’ zones.”
Id. at *1. In red zones, religious service attendance
was capped at 10 people, and in orange zones, it was
capped at 25. Id. In both zones, however, the order
provided that essential businesses could “admit as
many people as they wish[ed].” Id. at *2. The Court
did not provide an exhaustive list of businesses
deemed “essential,” but did note that “acupuncture
facilities, camp grounds, garages, . . . plants manufacturing chemicals and microelectronics[,] and all
transportation facilities” were included. Id. Moreover,
We respectfully join the Supreme Court in saying that members
of our court “are not public health experts, and we should respect
the judgment of those with special expertise and responsibility
in this area. But even in a pandemic, the Constitution cannot be
put away and forgotten. The restrictions at issue here, by
effectively barring many from attending religious services, strike
at the very heart of the First Amendment’s guarantee of
religious liberty. Before allowing this to occur, we have a duty to
conduct a serious examination of the need for such a drastic
measure.” Roman Catholic Diocese, 2020 WL 6948354, at *3.

3

8b
in orange zones, even “non-essential businesses
[could] decide for themselves how many persons to
admit.” Id.
The Court ultimately concluded that the houses of
worship had shown a likelihood of success on the
merits. Id. at *1. The challenged executive order, the
Court held, “violate[d] ‘the minimum requirement of
neutrality’ to religion.” Id. (quoting Church of
Lukumi, 508 U.S. at 533). Under the Court’s
reasoning, the New York order was not neutral
because it “single[d] out houses of worship for
especially harsh treatment.” Id. For example, “a large
store in Brooklyn . . . could literally have hundreds of
people shopping there on any given day,” whereas “a
nearby church or synagogue would be prohibited from
allowing more than 10 or 25 people inside for worship
service.” Id. at *2 (internal quotations omitted). The
Court held that this “disparate treatment” of religion
rendered the COVID-19 restrictions in the order not
neutral or generally applicable. Id. But see Church of
Lukumi, 508 U.S. at 533; Smith, 494 U.S. at 878.
Applying strict scrutiny review to the New York
order, the Court held that “[s]temming the spread of
COVID-19 is unquestionably a compelling interest,”
but concluded the challenged order was not narrowly
tailored. Roman Catholic Diocese, 2020 WL 6948354,
at *2. The Court reasoned that “[n]ot only is there no
evidence that the [two houses of worship] have
contributed to the spread of COVID-19[,] but there
were many other less restrictive rules that could be
adopted to minimize the risk to those attending
religious services,” emphasizing that the New York
restrictions are “far more severe than has been shown
to be required to prevent the spread of the virus.” Id.

9b
For example, New York could have tied maximum
attendance at a religious service “to the size of the
church or synagogue.” Id. Because the COVID-19
restrictions in the order did not survive strict
scrutiny—and the houses of worship satisfied the
other Winter v. Natural Resources Defense Council,
Inc., 555 U.S. 7 (2008), factors—the Court preliminarily enjoined the “enforcement of the Governor’s
severe restrictions on the [houses of worship’s]
religious services.” Id. at *4.
The Supreme Court’s decision in Roman Catholic
Diocese compels us to reverse the district court. Just
like the New York restrictions, the Directive treats
numerous secular activities and entities significantly
better than religious worship services. Casinos,
bowling alleys, retail businesses, restaurants,
arcades, and other similar secular entities are limited
to 50% of fire-code capacity, yet houses of worship are
limited to fifty people regardless of their fire-code
capacities. As a result, the restrictions in the
Directive, although not identical to New York’s,
require attendance limitations that create the same
“disparate treatment” of religion. Id. at *2. Because
“disparate treatment” of religion triggers strict
scrutiny review—as it did in Roman Catholic
Diocese—we will review the restrictions in the
Directive under strict scrutiny. Id.
The district court never reached the question of
whether the Directive survives strict scrutiny review
because it thought that then-current law required
only rational basis review. Although, “[a]s a general
rule,” we do “not consider an issue not passed upon
below,” we have discretion to decide “a purely legal”
question where “resolution of the issue is clear

10b
and . . . injustice might otherwise result.” Quinn v.
Robinson, 783 F.2d 776, 814 (9th Cir. 1986). We find
it necessary to exercise our discretion here, just as the
Supreme Court did in Roman Catholic Diocese, when
it enjoined certain features of an order that had
already been replaced.4
To survive strict scrutiny review, the Directive
“must be ‘narrowly tailored’ to serve a ‘compelling’
state interest.” Roman Catholic Diocese, 2020 WL
6948354, at *2 (quoting Church of Lukumi, 508 U.S.
at 546). The Directive—although less restrictive in
some respects than the New York regulations
reviewed in Roman Catholic Diocese—is not narrowly
tailored because, for example, “maximum attendance
at a religious service could be tied to the size of the
[house of worship].” Id. In other words, instead of a
fifty-person cap, the Directive could have, for
example, imposed a limitation of 50% of fire-code
capacity on houses of worship, like the limitation it
imposed on retail stores and restaurants, and like the
limitation the Nevada Gaming Control Board
imposed on casinos. Therefore, though slowing the
spread of COVID-19 is a compelling interest, the
Directive is not narrowly tailored to serve that
interest. See id.

The Supreme Court concluded that “injunctive relief [wa]s still
called for because the applicants remain[ed] under a constant
threat that the area in question [would] be reclassified as red or
orange . . . . If that occur[red] again, the reclassification [would]
almost certainly bar individuals in the affected area from
attending services before judicial relief [could] be obtained.”
Roman Catholic Diocese, 2020 WL 6948354, at *3 (internal
citation omitted).

4

11b
For these reasons, Calvary Chapel has
demonstrated a likelihood of success on the merits of
its Free Exercise claim. It has also established that
the occupancy limitations contained in the
Directive—if enforced—will cause irreparable harm,
and that the issuance of an injunction is in the public
interest. See id. at *3; Winter, 555 U.S. at 20.
Accordingly, we reverse the district court, instruct the
district court to employ strict scrutiny review to its
analysis of the Directive, and preliminarily enjoin the
State from imposing attendance limitations on inperson services in houses of worship that are less
favorable than 25% of the fire-code capacity. The
district court may modify this preliminary injunctive
relief, consistent with this opinion and general
equitable principles. See Winter, 555 U.S. at 20. We
encourage the district court to act expeditiously in
connection with any such modification.
CONCLUSION
For the reasons above, we reverse the district
court and remand for further proceedings. This order
shall act as and for the mandate of this court.
REVERSED AND REMANDED.

